.;;



                                               ,
                                          ..   ,                          NATIONAL SCIENCE FOUNDATION
                                                                           OFFICE OF INSPECTOR GENERAL h'
                                                                            OFFICE OF INVESTIGATIONS '.il

                                                                 !   CLOSEOUT MEMORANDUM
                                                                                                           "




      Case Number: 106050012                                                                                                                    ,,,. .      Page 1 of 1

                                                                                                                                                l
                      We were informed by another dIG thatit'was>investigati~g ~xcessive salary charges
               from federal awards by a faculty ~ember at a university. The other OIG determined that the
               university had overcharged salary for several faculty members to numerous awards from DOE,
             . DOD, and NSF. Without admitting that its faculty salary charges were exce~sive,· t~e
               university changed its policy to prevent this type· of mischarging. in the future and agreed to
                                                                      .                                                                     •   ;1                     '

               pay $636,500 to settle the. matter.' NSF's share of this settlement,:tbased on its 1.7%
               proportionate share ofthe mischarges was $10,758.21        j  - .
                                                                                           :;.   } -•.J.       t   ~   •               :1       ,I . • .'          •

                                 ,                                   .'               . , 1 1
                         The settlement
                                     .
                                        agreement 'and DO] press. release'are att:khed; this case is closed.

                                                                                       ,    .


                                                                                                                                                                           "'"',   \




                                                                                                                              ,   ..   .

                                                                 :
                                                                              ,   .                                    .~'"




                                      .   -I                :;


                                                    ..                                                                                                        .'
                                                   1., . . . .




      NSF 0[0 Form 2 (Il/02)
             1!ltpurfmtnt of 3Justirt
                     Acting-United States Attorney Michael K. Loucks
                                 District of Massachusetts

FOR IMMEDIATE RELEASE                          CONTACT: CHRISTINA DiIORIO-STERLING
JUNE 11, 2009                                                   PHONE: (617)748-3356
WWW.USDOJ.GOVIUSAO/MA                             E-MAIL: USAIV1A.MEDIA@USDOJ.GOV

                 UMASS TO PAY $636,500 TO SETTLE ALLEGATIONS
                   OF FALSE CLAIMS TO FEDERAL AGENCIES

       Springfield, MA ... University of Massachusetts agrees to pay settlement to resolve false
claims allegations.

       Acting United States Attorney Michael K. Loucks announced that the UNIVERSITY
OF MASSACHUSETTS has agreed to pay $636,500 to settle allegations that false claims were
made to the Department of Defense, the Department of Energy, the National Science Foundation
and other federal agencies in connection with multiple federal research grants awarded to the
University.

        The settlement, made effective today, resolves allegations that between 1998 and 2006
the UNIVERSITY OF MASSACHUSETTS improperly charged salary, faculty stipends and
vacation time to federal grants awarded to the university by more than a dozen federal agencies.
Specifically, the Government alleged that the UNIVERSITY OF MASSACHUSETTS charged
federal grants for faculty pay in excess of the faculty members' base salary and for faculty
stipends. The Government contended that this practice violated federal regulations designed to
ensure that faculty compensation billed to federal grants is commensurate with the faculty's
granted-funded research work.

        -"Academic institutions that receive federal grants have a responsibility to administer the
funding properly," Acting U.S. Attorney Loucks stated. "This settlement should send a message
to institutions that accept federal grant money, that they must strictly adhere to the terms and
conditions agreed to at the time the grant is administered."

       Resident Agent in Charge Kathryn A. Feeney, Defense Criminal Investigative Service,
New Haven, CT said, "This settlement reinforces the Department of Defense's commitment to
the investigative oversight of federal awards to ensure transparency and accountability of all
universities which receive federal funds."

       The case was investigated by the Defense Criminal Investigative Service and the Defense
Contract Audit Agency. The case was handled by Assistant U.S. Attorney Karen L. Goodwin in
Loucks' Springfield Office.

                                               ###
...


                                                                                                                                                           II

                                                        I:N RE: UNI:VERSI:TYOF. MASSACHt1SETTS                                                                 i'




                                                                                     I:.         Parties

                       This 'Settlement Agreement                                              ('~Agreement'~)' is 'made aiBd
                                                                                                                          , entered into      .




          by and among the' following (hereinafter "the Parties'i)" through their
                                                                        .                                                             .                    ,.
          authorized represeritati v€is : United States '6fAmerica, b actin~ through

          the United States Department of Justiceanddn behalf of;'the Department'·
               '..               ,.                          '. "           .'
          of Defense ("DOD"), the Department of Energy ("DOE") and the National
                                                                                      .         :"                    , " ."                                   J
                                           '"
          Science Foundation ("NSF"), and
                                        .
                                          the. Uni. versi ty'ofMassach'hsetts-Amherst
                                                                      I
                                           r                                                                                                                    l

           ("UMass-AIDherst"). .                                                                                  '

                                                                                     II.        i?reamb~e


                       As a preamble tothis Agreement, the Parties a'gree to the following:

                       1.           UMass-Amherst
                                       . "
                                                  lS the Amherst, Massachusett~~
                                                                               :
                                                                                 campus of the

          UniversityofMassachusetts,astateuniversitywithCampusesinAmherst,
                            •                   ~             .     -            .             ".        l'             '"   ".   ,                             .~.      . '

          Boston, Worcester i Dartmouth and Lowell , Massachusetts .. ~ Formany years,

          UMaSs-Amher~t has received grants;, or entered i'nto'contracts or other

          form~ 6'f agreements, with various agencies or instrufuentali ties of

          the.United States government.
                                                                                                                                  , '.'           .             ii
                       2.           As used in thisagreemeht, the term "Covered ~ederal Awards"
      .    .                        ''!f            .    •              '-.'                         "        -        ",                 .       '       ..        j.    •
          means the grants; research or other procurement contracts, cooperatJ.ve
                                                                             .             .                                                                        ~


          agreements, and other forms of agreements or awards ma'de to UMass by

      . the departments:, agencies or instrumentalities 'of the, United States
                                                                                                                                                                    I         .
          government listed on Exhibit A, or to UMass by any other recipient


                                                                                                                                                                                  1


          \\DC - 030915/000001 - 2872338.3




                                                                                                                                                      (
or subrecipient under such an agreement or award.

            3.           The "Covered Period" shall be the period from January 1,

1998, through December 31, 2006.

            4.           The "Covered Conduct" shall consist of the following alleged

conduct of UMass-Amherst with respect to Covered Federal Awards:

                                  a.   Allegations that during the Covered Period

                         UMass-Amherst caused charges tobemadeto the Covered Federal

                         Awards for faculty compensation during the academic year

                         in excess of the faculty members' academic year base salary

                         in violation of federal laws, regulations, sponsor policies,

                         or award terms and conditions.
                           -\.

                                  b.   Allegations that during the Covered Period

                         UMass-Amherst~ausedchargestobemadetotheCoveredFederal


                         Awards for faculty compensation during the summer months

                         at a rate in excess of the faculty members' academic year

                         base salary divided by the period to which the base salary

                         relates in violation of federal laws, regulations, sponsor

                         policies, or award terms and conditions.

                                  c.   Allegations that during the Covered Period

                         UMass-AmherstcausedchargestobemadetotheCoveredFederal

                         Awards for administrati ve stipends in violation of federal

                         laws, regulations, sponsor policies, or award terms and

                         conditions.


                                                                                    2


\\DC -030915l00000\- 2872338 v3
                                    d.        .; Allegat'ions that during . the Co.Jered' Period
                                                                                                          !'          .
                         UJ}1'ass-Amherstcauseacharges'to be made't"o q:overe'd ltederaT
                                                                                                           !
                         .                                                                                ~       .
                         Awardsforfacultymembervacationtimeinviolationoffederal
                                                                  ,                        . ,            J
                                                            .                                             ~

                       . laws, regulations, sponsor policies, or award terms and

                         conditions.

            5.'
         The United States contends that"it has certairlclaims against
                 ,           ' . '              .      'W
                       .            '        ....      f.            ,
UMass-Amherst under the False Claims Act, 31, {).S. C: §§ 3729-33, and                                                        "

other federal statutes and/or comin6n'law:doct'rines ~flior engaging in
                                                                                                           ',.
the Covered ~6nduct.
                                                                          • >;'

                                                                                                          l'
                                                                                                           It
             6.          UMass-Amherst denies that it has a'ny liab~lity under'the

False 'Claims Act, 31 :0 ~ S. c. ~. §§ '3729':'3733, or other f~de:tal statutes'
                         ,




and/or common law doctrines with regard to the Covered Conduct'.·
                                                                                      .'.                 t·
            7.           This Agreemerit is not be construed as an admiss ion of liability

.byUMa:ss-Alnherst, evidence'thatUMass":Amherst. isstibj ec~:toFalse claims

Act j urisdict:Lon, or a concession by the Uni:ted States tnat its claims
                                                                                                           'ij
                                                                                                           ~
                                         1.
                                                                                                           II,
are 'not well founded.

            8.           In       order toavoid'the delay, uncertainty, an'conveniend:~,
                         ,~                                           .      f    :   ,"   ......   ~.      ':~   ,

and expense of protracteq litigation of:these claims,' however ,the
              .                                                       '                    .~




Parties reach a full and finaf settlement pursuant to the Terms 'and

Co~ditibns                   set forth ~elo~ . . ~
                                                                                                         , f
                                               III. Terms and Conditions
                                                                                                           ~
                         UMass-Amherst agrees to pay to the United's"tates $636;500

 ("the Se'ttlement Amount                        'i )' .   Thissumshall cohstitute adebtimmediately


                                                                                                                          3


IIDC, 0309151000001 ,2872338 v3
due and owing to the United States; the debt to be discharged by payment

as described herein.                  UMass-Amherst agrees to make payment of the

Settlement Amount by electronic funds transfer pursuant to written

instructions to be provided by the United States Attorney's Office,

District of Massachusetts, by no later than ten business days after

the later of (a) the Effective Date of this Agreement or (b) receipt

of the written instructions.

             2.           Subj ect to the exceptions in Paragraph 3 below (concerning

excluded claims) in.consideration of the obligations of UMass-Amherst

in this Agreement, and conditioned upon payment by UMass-Amherst in

full of the Settlement Amount, the United States (on behalf of itself, .

its officers, agents, agencies, and departments) agrees to release

UMass-Amherst, together wi th its current or former trustees, officers,

directors, faculty, employees and agents and the successors and assigns

of any of them, from any civil or administrative monetary claim or

other claim the United States has or may have for the Covered Conduct

under the False Claims Act, 31 U. S. C. §§ 3729-3733, the Program Fraud

Civil Remedies Act, 31 U.S.C. §§3801-3812i               theCivil~onetaryPenalties


Law, 42 U.S.C. § 1320a-7a; or the common law or equitable theories

of payment by mistake, disgorgement, unjust enrichment, restitution,

recoupment, conversion, constructive trust, negligence, breach of

contract and fraud.

             3.           Notwithstanding any term of this Agreement, specifically


                                                                                    4


\\DC. 0309 1SIOOOOOI ·2872338 v3
reserved and' excluded from the scope and terms of this Agreement as
             _   ~.
                                                     li     I   .   __ _


to any entity or person (including UMass-Amherst) ar~ the following
                                                                                                  ,
'clai~s"of               the Onited States~
                                                                                                      '




                          (a)     Any civil, criminai or admiI1.istrativeii.sbility'imder

Title 26,                U~S,."   Code ,(Internal" Revenue Code); ,

                        "(b)' Any criminal liability:,

                          fc)     Except, as explicitly stated in thi's lAgreement,any

non-monetar"y administrative' liabili ty ,'includingma'ndatory6i '."'

non-mandatory eXclusion'from"'Federal
                .
                                      grantorcontrlact"
                                             .  .
                                                        programs ;1,         ~




                          (d)     Any'liabili'tyto the" United States      (or        its agencies)

for' any coriduct ~the~ than the' t6veredCbnducti

                          (e)'    Any liabilitybasedupohsuchobligations as are ciea'ted"
                                                                             II
                                                                             '~
by this Agreement;                                                            Ii      "




                          (f~     Any liabii.ity~'forexpressor implied warranty claim's
                                                                           , j
or other claims for .aefective or d~fic'ient products or services,

                         qual{tyof goods and services;"

                        ,(g)      Anyliabil'ity for failure "to deliver    96~OdS or service"s
                                              ,   '"
due:
                                                                                 ~


                          (h)                                            "
                                  Any' liability for personal'injury or p,roperty damage

, or {or other consequential damage~ arising from the Covered Conduct;
                                                                              ,
or
                          (i)     Any civil'or"admini'st:rative liability of individuals
                                                                                 II
 {including current or former director's, o~ficers, emplo~ees, and agents


                                                                                                  5


\\DC. 03Q?ISIOOOOOI ·2872338 v3



                                                                                                          I

                                                                                                          I
of UMass-Amherst) who receive written notification that they are the

target of a criminal investigation (as defined in the United States

Attorney's Manual); are indicted, charged, or convicted; or who enter

into a plea agreement related to the Covered Conduct.

             4.            UMass-Amherst waives and shall not assert any defenses

UMass-Amherst may have to any criminal prosecution or administrative

action relating to the Covered Conduct that may be defenses bas'ed in

whole or in part on a contention that, under the Double Jeopardy Clause

in the Fifth Amendment of the Constitution, or unde-r the Excessive

Fines Clause in the Eighth Amendment of the Consti tution, this Agreement

bars a remedy sought in such criminal prosecution or administrative

action.               Nothing in this paragraph or any other provision of this

Agreement constitutes an agreement by the United States concerning

thecharacterizationoftheSettlementAmountforpurposesofthelnternal

Revenue laws, Title 26 of the United States Code.

             S.            UMass-Amherst fully'and finally releases the United States,

itsagencies, employees, servants, andagentsfromanyclaims (including

attorney'sfees,costs,andexpensesofeverykindandhoweverdenominated)

that UMass-Amherst has asserted, could have asserted, or may assert

in the future against the United States, its agencies, employees,

servants, and agents, related to the Covered Conduct and the United

State~'              investigation and prosecution thereof.

             6.            UMass-Amherst agrees to the following:


                                                                                     6


\\DC - 0309151000001 - 2872338 v3
             (a)          Unallowable Costs Defined:                           That all costs (as }defined in
                                                                                                      ,   ,i
                                                                                                          ;l

the Federal Acquisition Regulatio'n; 48 C"F. R.                                             '§   31.205-47) incurred

by or on behalf                    of      UMass-Amherst, and its present or former officers,
                                                                      ,             '




directors,
 .
           einployees~
            .
                       shareholders and agents 'in connection
                                                       ,      with the

items listed below are "unallowable Costs" for g~vernm~nt contracting

purposes (h~reinafte~ r~feired to as "Unal16wable, Costs.~ This

~aragraph applies '~o the following ite~s;

              (1)         the matters covered by. this: Agreement,

              (2)         the'U~iie~Statesi'audit(s) and irivestigationi(~) of the
                                                                                                  .        ~
                                                'J                                                         "

matters c6veredby this A~reement;

              (3)         UMass-Amherst"s investigation, defense,' c(nd corrective
                                                                                                               ~
actions underta~enin response to 'the bnited State;~-~udit(s) and
                            .                                   .                                              I
investigation(s)inconnectionwiththematterscoveredbythisAgreement
                                                                                                               ~
 (including attorney's                                    ),
                                                                                                               ,
              (4)         the ne'go'tiation and performance of this Agreement,· and
                                                                         ,~
              (5)        "the payment UMass-'Amherstmakes to the Uni ted States pursuant

to this Agreement, including any costs and attorney's fees.
                                                                                        .                      II


              (b)         Futu~e Tre'atinent. ofU~al'lowable Costs:                                       Un'allowable

Costs will be/separately determined andaccou.nted for by UMass-Amherst,
                                                                                                               f,       .

and UMass-Amherst shall not-charge such UnallowableCosts:directly

or indirectly to' 'any contracts with                                     "or graribs
                                                              from the;llrii ted States.
                                                                       !
             (c)          TreatInentof'u'nallo1tfabl~ Costs Prevf6usl/ Submitted for
                                   .   .    -        ,.        ..,.       ..                ' . ' "                     .   .:   ,
Payment: UMass-Aroherst further agrees that wi thin 90days qftheEffecti ve
                                                                                                                   ij




                                                                                                                                     7


I\DC • 030915/000001 ·2872338 v3
Date of this Agreement it shall identify any Unallowable Costs (as

defined in this paragraph) included in payments previously sought by

UMass-Amherst from the United States.                  UMass-Amherst agrees that the

United States, at a minimum, shall be entitled to recoup from

UMass-Amherst any overpayment plus applicable interest and penalties

as a result of the inclusion of such Unallowable Costs in such payment.

Any payments due shall be paid to the United States pursuant to the

direction of the Department of Justice, and! or the affected agencies.

The United States reserves its rights to disagree with any calculations

submitted by UMass-Amherst regarding any Unallowable Costs included

in payment,s previously sought by UMass-Affiherst, or the effect of any

such Unallowable Costs on the amount of such payments.

             (d)         Nothing in this Agreement shall constitute a waiver of the

rights of the United States to audit, examine or re-examine

UMass-Amherst's books and records to determine that no Unallowable

Costs have been claimed in accordance with the provisions of this

Paragraph.

            7.           This Agreement is intended to be for the benefi t oftheParties

only.           The Parties do not release any claims against any other person

or entity.

            8.           ExceptasexpresslyprovidedtothecontraryinthisAgreement,

each party to this Agreement shall bear· its own legal and other costs

incurred in connection with this matter, including the preparation


                                                                                      8


\\DC -030915/0000Q1 - 2872338v3
  and performance .of this Agreerhen.t'.                       .~.,


               9.           UMass-Amherst represents' that this Agreement                         freely arid

  voluntarily en'tered into without                       ahy degree       ofdures's or compulsion
                                                                                   ,j
  wha tsoever.·                      ,
                                            .      . '     ,   .                    .         ,



         (.    10.          This Ag~eement is governed by thelaws ofth~ Uriited States.
                                                                                   Ii.

  The Parties agree that the exclusive. jurisdiction and 'venue for any

  dispute arising; between and' among 'the 'Parti"es underithis Agreement
                                                          !
  shall be the United States District Court for the District of
                                                                       .   '')

  Massachusetts.
                                                                                    i
                     ,.                          .•                                 1
               1L ' For purposes of construction, this Agreement shall be deemed

  to have been drafted by all Parties to this                         Agreement,~and              shall not,
                                                                                    ij
                                                                                    r,
  therefore,be construed against any Party for that ~eason in any

  subsequent dispute.
                                                                                     II
               12.          This Agreement represents' the complete agr'eement between

  the Parties.                       This Agreement may notbe amended except by written consent
                                                                                    ..~

  of the Parties.

               13..         Nothing in any provision of this Agreement,consti tutes an
                                                                                    .ij
  agreement by the Uni ted states concerning the characterization of the

  Settlement Amount for the purposes of the Internal Reve~ue laws, Title

  26 of the United States Code.

               14.          The undersigned individuals signing this Agreement onbehalf
                                                                                        i,

  of UMass-Amherst represent and warrant that they are authorized by

  the Board of Trustees of UMass-Amherst through Unive~sity Policy to
                                                                                          j
                                                                                        ';;

                                                                                                           9


. \\DC - 0309151000001 ·2872338 v3
execute this Agreement.                      The undersigned United States signatories

represent that they are signing this Agreement in                        the~r   official

capacities                   ~nd    that they are authorized to execute this Agreement.

             15.           The Agreement may be executed in counterparts, each of which

shall constitute an original and all of                      ~hich   shall constitute one

and the same Agreement.

          '16.             This Agreement is binding on UMass-Amherst's successors,

transferees, heirs, and assigns.

             17.          All Parties consent to the United States' disclosure of this

Agreement, and information about this Agreement, to the public.

             18.           This Agreement is effective on the date of signature of the

last signatory to this Agreement ( "Effective Date of this Agreement") .

Facsimiles of signatures shall constitute acceptable, binding

signatures for purposes of this Agreement.




                                                                                        10

I\DC • 030915l000001 - 2872338 v3
                                                                 ;

       IN WITNESS WHEREOF, the Parties have executed tpis Agreement.
                                            '   ..
POR THE UNITED STATES OP AMERICA


       MICHAEL K. LOUCKS
       ACTING UNITED STATES ATTORNEY
       DISTRICT OF MASSACHUSETTS


'By:                 .    '
                                                                  .~

                                                                 Dated:
       KAREN L.'GOODWIN
       ASSISTANT U. S. ATTORNEY


PORONlVERSITY OP MASSACHUSETTS'at,AMHERST


By:
                                                         "




                                                   . D.:ited:
                                                             .
       ROBERT C. H O L U B t
       CHANCELLOR                                      ~
       UNIVERSITY OF UNIVERS!TY OF MASSACHUSETTS at zu.iHERST          p,




            - in their capacity as-

                                                                            i

       COUNSEL FOR UNIvERSITY OF'MASSACHUSETTS'at AMHE~ST,




       ~
             .   .   ,.       '   -::::::::::::::::0:>
~:     '


       ,.~
                     - '                                         Da.ted:

       JUDYC. FAUBERT, ESQ.                                                 !'
       HOGAN & HARTSON LLP
       WASHINGTON I DC




                                                                                 11
       IN WITNESS WHEREOF, the Parties have executed this Agreement .


. FOR THB UNITED STATES OF AMERICA


       MICHAEL K. LOUCKS
       ACTING UNITED STATES ATTORNEY
       DISTRICT OF MASSACHUSETTS


 By:                                                  Dated:
       KAREN L. GOODWIN
       ASSISTANT U.S. ATTORNEY


 FOR UNIVERSITY OF KASSACROSE'l'TS at   AMHERST


By:       ~~
       ROBERT C. HOLUB
                                                    Dated: '~V'!1
       CHANCELLOR
       UNIVERSITY OF UNIVERSITY OF MASSACHUSETTS at AMHERST



             - in their capacity as-


       COUNSEL FOR UNIVERSITY OF MASSACHUSETTS at AMHERST,



By:                                                   Dated:
         MICHAEL J. VERNICK, ESQ.
         JUDY C. FAUBERT, ESQ.
         HoGAN & HARTSON LLP
       . WASHINGTON, DC




                                                                   11
                                                        u    ,
              IN WITNESS .WHEREOF, the Parties have executed this Agreement. '


FOR THE UNITED STATES OF AMERICA
                                                             "



              MICHAEL K. LOUCKS                              *
                                .
              ACTING UNITED STATES ATTORNEY
              y:OFmNNB~
              ~7J.jotJc;MQ;x..)
              KAREN L. GOODWIN
              ASSISTANT U.S. ATTORNEY

FOR UNIVERSITY OF MASSACHUSETTS at AMHERST




By:                                                            "
                                                             . Dated:
              ROBERT C. flOLUB
              CHANCELLOR
              UNIVERSITY OF UNIVERSITY OF MASSACHUSETTS at AMHERST



                                  in their capacity as- .

                                                                 ".
              COUNSEL FOR UNIVERSITY OF MASSACHUSETTS at AMHERST,



By:                                                              Dated:
              MICHAEL J.VERNICK, ESQ.
              JUDY C. FAUBERT, ESQ.
              HOGAN & HARTSON LLP
              WASHINGTON, DC




                                                                           11


\\DC - 03091 S/OOOOO 1 - 2812338 v3
